<html>
<title> - [H.A.S.C. No. 113-124] RISKS TO STABILITY IN AFGHANISTAN: POLITICS,SECURITY, AND INTERNATIONAL COMMITMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


.                          

                         [H.A.S.C. No. 113-124]

                   RISKS TO STABILITY IN AFGHANISTAN:

                        POLITICS, SECURITY, AND

                        INTERNATIONAL COMMITMENT

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 30, 2014


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               ____________
                               
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
89-517                     WASHINGTON : 2015                       
__________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2740574867445254534f424b570944484a09">[email&#160;protected]</a>  
           

                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, July 30, 2014, Risks to Stability in Afghanistan: 
  Politics, Security, and International Commitment...............     1

Appendix:

Wednesday, July 30, 2014.........................................    33
                              ----------                              

                        WEDNESDAY, JULY 30, 2014
      RISKS TO STABILITY IN AFGHANISTAN: POLITICS, SECURITY, AND 
                        INTERNATIONAL COMMITMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Cordesman, Anthony, Arleigh A. Burke Chair in Strategy, Center 
  for Strategic and International Studies........................     8
Dale, Dr. Catherine, Specialist in International Security, 
  Congressional Research Service.................................     3
Neumann, Ambassador Ronald E., President, American Academy of 
  Diplomacy......................................................    11
O'Hanlon, Dr. Michael, Director of Research for the Foreign 
  Policy Program, Brookings Institution..........................     5

                                APPENDIX

Prepared Statements:

    Cordesman, Anthony...........................................    78
    Dale, Dr. Catherine..........................................    40
    McKeon, Hon. Howard P. ``Buck''..............................    37
    Neumann, Ambassador Ronald E.................................    88
    O'Hanlon, Dr. Michael........................................    57
    Smith, Hon. Adam.............................................    38

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
      RISKS TO STABILITY IN AFGHANISTAN: POLITICS, SECURITY, AND 
                        INTERNATIONAL COMMITMENT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 30, 2014.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen. The committee meets to receive 
testimony on the risk to stability in Afghanistan as we 
transition to a post-2014 residual presence there.
    Our witnesses include Dr. Catherine Dale, Dr. Michael 
O'Hanlon, Mr. Anthony Cordesman, and Ambassador Ronald Neumann. 
Thank you all for joining us today. I know you have been here 
before, but it is important for us to find out the latest.
    The United States and its coalition partners have made 
significant achievements in Afghanistan, from building the 
Afghan National Security Forces [ANSF] to advancing growth in 
civil society, to achieving significant counterterrorism 
successes against our enemies. All of these efforts have served 
our national security interest. However, these gains are 
fragile and reversible.
    Afghanistan has entered a period of transition, one that 
carries significant risk in my view to its stability and 
security because the critical elements of that transition have 
not yet been achieved.
    Politically, the Afghan presidential elections remain 
unresolved. Diplomatically, the Bilateral Security Agreement 
remains unsigned. And from a security perspective, sustainment 
of an adequately sized and capable ANSF remains uncertain.
    We are witnessing an uptick in violence not only because of 
the summer fighting season, but also because the Afghan Taliban 
and the Haqqani Network are testing the ANSF and their ability 
to secure the country.
    If we don't get this transition right, do what is necessary 
to provide U.S. and international commitment to a long-term 
sustainable strategy for Afghanistan, then we risk a similar 
future for Afghanistan as we are seeing today in Iraq, where 
there are few good options and sizeable limits on our ability 
to affect the situation even though the risks to our security 
are clear and present.
    Our security interests in Afghanistan are clear and we have 
sacrificed too much to focus solely on short-term exit 
strategies. Now is the time when we have more options to 
consider, when we have an opportunity to shape and influence 
the situation and when the President must engage and engage 
often.
    However, I fear that the totality of the President's 
interest on Afghanistan is simply to do what is necessary to 
finish the job and withdraw. And I worry that the 9,800 U.S. 
troops, which will be halved within a year, are not going to be 
sufficient to provide the necessary support to the ANSF given 
the threat from Al Qaeda, the Haqqani Network, and other 
jihadist groups in Afghanistan.
    On a final note, I hope the President will heed the advice 
of his military commanders. He has a superb Army General, John 
Campbell, taking command of ISAF [International Security 
Assistance Force], following after General Dunford's tremendous 
leadership there.
    I will encourage General Campbell to conduct his own 
assessment [of] the situation in Afghanistan and to provide 
that assessment up through the chain of command, as well as to 
Congress.
    Today, we will gain more insights into where we are at and 
where we need to go along the key lines of effort of the 
transition that I outlined earlier during this critical phase 
in Afghanistan. Our panel of experts has a wealth of experience 
and, again, I thank you for being here today to share them with 
us.
    I look forward to your testimony and your insights.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 37.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And thanks to our 
witnesses for being here today. I look forward to the 
conversation. And I agree with the chairman's remarks.
    Certainly, we have made significant progress in Afghanistan 
in terms of training their forces, fighting back in the south 
and elsewhere to regain security and some control. The efforts 
of the last 3 or 4 years in particular by our service men and 
women, and all of the supporting folks as well, have borne real 
fruit and have moved us forward.
    However, as the chairman says, those gains are fragile and 
reversible because the problems with the Afghan Government 
remain. We are going to the difficult transition, trying to 
figure out who the next president is going to be. We do not yet 
have the Bilateral Security Agreement, which would give us some 
security going forward.
    And just, overall, the stability of the Afghan Government, 
it still is plagued with corruption and plagued with a number 
of difficulties. While the security forces in Afghanistan have 
gotten better, they are not as well-equipped as they could be. 
I am particularly concerned about the lack of close air support 
going forward and their overall ability to deal with what is 
still a very robust Taliban insurgency.
    That said, we have got to hand off responsibility at some 
point and I think it is important we have done this in a 
stairstep manner, that we have sort of slowly gradually handed 
over responsibility. And hopefully, if we can get the Bilateral 
Security Agreement signed, we will not be in the same place 
that we were in in Iraq, where we couldn't get a similar 
agreement signed, and we had to just go down to nothing in 1 
year.
    That quick transition, I think, was at least the small part 
of the problem in Iraq. We would like to see a smoother 
transition in Afghanistan.
    But as these challenges confront us, we are always 
interested in learning more about how best we can meet them, 
how best we can deal with them, because we do have national 
security interest in that region. You know, the violent 
extremist groups that are present there are obviously closely 
linked to Al Qaeda and the ideologies that threaten us.
    We need to find some way to contain that and hopefully get 
us to the point where we can have a peaceful and reasonably 
stable regime in Afghanistan and in Pakistan, as Pakistan is 
also threatened by many of these terrorist groups.
    So I look forward to the testimony. I thank the chairman 
for having the hearing. And I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 38.]

 STATEMENT OF DR. CATHERINE DALE, SPECIALIST IN INTERNATIONAL 
            SECURITY, CONGRESSIONAL RESEARCH SERVICE

    The Chairman. Dr. Dale.
    Is your mic on?
    Dr. Dale. It is not. Sorry, but it is now. Chairman 
McKeon----
    The Chairman. And you have to talk right into it.
    Dr. Dale. I have been accused of many things over time, 
seldom of being too quiet. But I am happy to accommodate. 
Again, thank you for the invitation to join you today, the CRS 
[Congressional Research Service] and myself, to testify about 
risks to stability in Afghanistan.
    It is a great time for this discussion, not long after 
President Obama's announcement in May about the timeline for 
further U.S. troop drawdowns and changes in their mission and 
footprint. The U.S. still does face tough choices ahead, 
choices that will powerfully shape the prospects for stability 
in Afghanistan, the protection of U.S. interest, and the U.S. 
reputation and influence on the world stage.
    A genuinely strategic approach to those choices would start 
with the interests we had at stake, what it would take to 
protect those interests, how long that would take, how much it 
would cost, and the risks if we don't take those steps, and 
then given limited resources, the importance of this effort 
compared to all the other things that we care about.
    Afghanistan's future stability is at risk in at least four 
different arenas. First of all security. In just 5 years, the 
Afghan National Security Forces have made remarkable progress, 
with support from the U.S. and other NATO [North Atlantic 
Treaty Organization] allies and partners. They have grown in 
capacity, in capabilities, in their unity of effort, their 
ability to generate effects against the enemy, and they have 
largely succeeded in providing security for major events across 
Afghanistan over this past year, including the two rounds of 
elections.
    But the insurgency has not been defeated. They are able to 
stage traumatic attacks, to intimidate some Afghans in some 
communities, and to mount some large-scale assaults. So at 
issue is how much the insurgency may be further emboldened by 
the ongoing coalition troop drawdown and how well the ANSF will 
respond to any increased insurgent pressure.
    Security in Afghanistan is fragile. Let me mention three 
aspects. The ANSF are still in the process of integrating their 
own organic enablers in arenas such as lift, casualty 
evacuation, and fires. They will face enabler gaps as coalition 
forces draw down and before Afghan enablers, which will be more 
limited in scope and scale, come fully online.
    Afghan forces on the ground also need better institutional 
support from the systems like logistics and personnel and 
resourcing against requirements. The coalition is working with 
Afghans both at ministries in Kabul, national level 
headquarters, and then down on the ground with the army and 
police to help them vertically integrate those systems.
    The current policy calls for pulling advisory efforts back 
into Kabul by the end of next year, and it is not yet clear how 
much progress will have been made by that point.
    The ANSF feel that the tools they have are insufficient or 
that their own systems cannot support them. They may choose to 
retract their reach, to hunker down, to cut local level deals 
with insurgents, or they may overextend and fail so 
catastrophically that they lose confidence in themselves.
    In addition, U.S. troop drawdowns will sharply curtail our 
ability to target Al Qaeda and affiliates, which still do pose 
a threat.
    There are three options, essentially, if you choose an 
option. One is to eliminate the threat beyond prospect of 
regeneration. Another is to ensure that Afghan and Pakistani 
forces can handle that threat. Or you could preserve U.S. 
ability to act directly, more or less indefinitely. We need to 
be clear about which of these solutions, if any, we intend to 
pursue.
    Second arena is governance. Security in Afghanistan cannot 
hold without governance that the Afghan people accept. An 
architecture of responsible governance is needed to direct the 
ANSF and hold it accountable to provide access to justice in 
the rule of law, to ensure some minimum foundation of economic 
viability and opportunity, and to inspire the trust of both 
regional neighbors and the Afghan people.
    But governance in Afghanistan faces two fundamental 
challenges. One is simply a lack of capacity, the ability to 
get things done. The other is corruption: pervasive, voracious 
contestation for political and economic power and influence, 
backed up by personalized militias, that consistently 
cannibalizes the Afghan state.
    The best long-term solution would be an increasingly 
inclusive constitutionally grounded Afghan political order. 
Successful resolution of the current electoral impasse in a way 
that most Afghans accept could be an important catalyst of that 
longer-term process.
    Now, Afghanistan's increasingly vibrant civil society can 
also help. That is non-governmental organizations, women's 
groups, media outlets, youth organizations, the private sector, 
traditional local councils. National dialogue in Afghanistan is 
alive and well. It just needs time to grow.
    Third is Pakistan. There is no such thing as a stable 
Afghanistan in isolation. And the neighbor most crucial to 
Afghanistan's stability is Pakistan. But that bilateral 
relationship is marked by a fundamental lack of good faith at 
the strategic level.
    ISAF actively facilitates Afghan-Pakistani mil-to-mil ties, 
but those opportunities will be more limited as our troops draw 
down. More fundamentally, it is not clear how well mil-to-mil 
ties can actually aggregate up to resolve tensions at that 
political level.
    What may make sense for the longer term is sustained 
strategic-level U.S. engagement, leveraging all the instruments 
of national power to help shape a stable region. There is some 
danger that without a continued significant U.S. force presence 
in Afghanistan, this region will simply disappear from our 
strategic radar screen amidst the panoply of competing demands.
    Fourth, and finally, economics. The biggest elephant in the 
room is this--who will pay for future security in Afghanistan. 
Afghanistan itself simply will not be able to foot the bill 
anytime soon. And without funding, Afghanistan security 
architecture would almost certainly collapse quickly and 
perhaps with it the Afghan state.
    The international community has pledged support, but the 
bill is large and it faces competing exigencies in each 
national capital. As the international presence in Afghanistan 
diminishes and with it, the ability to monitor implementation, 
donors would want concrete reassurance that any funding they 
provide would be utilized accountably. And would-be donors are 
hardly likely to sign up for a 10-year commitment if there is 
no prospect that Afghans at the end of that time will be able 
to assume responsibility.
    The step that could come next is a real dialogue about 
future funding requirements over time, including Afghanistan's 
ability to contribute. It would also be helpful for the 
international community to pool its efforts more concertedly 
and leverage tools like the Tokyo Mutual Accountability 
Framework.
    One final word. One of the greatest risks looking ahead is 
that in the mad rush of competing global crises, the U.S. 
Government will not be able to find any more time to think 
about Afghanistan. It will effectively decide not to decide. 
Far better to approach the way forward strategically with due 
consideration of the interests the U.S. has at stake, what it 
would take to protect them, and the consequences for the United 
States should stability in Afghanistan collapse.
    Thank you for this opportunity, and I look forward to your 
questions.
    [The prepared statement of Dr. Dale can be found in the 
Appendix on page 40.]
    The Chairman. Thank you. Dr. O'Hanlon.

STATEMENT OF DR. MICHAEL O'HANLON, DIRECTOR OF RESEARCH FOR THE 
         FOREIGN POLICY PROGRAM, BROOKINGS INSTITUTION

    Dr. O'Hanlon. Thank you, Mr. Chairman. It is an honor to be 
before the committee that I have admired for so long, and I 
want to say a special word of gratitude and admiration to your 
service as chairman, as you think about a next stage in life in 
the coming months.
    I really want to just focus on one point. I know we have a 
lot of subjects before us on Afghanistan, and I am here with my 
distinguished colleagues and frequent travelling companions to 
Afghanistan who are, like Catherine, going to add so much.
    So I just want to focus on the proposal to pull all of our 
main combat units out by 2016 or by the end of that year, which 
of course is part of the drawdown plan the President has now 
put on the table in his May remarks.
    And, Mr. Chairman, you alluded to the 9,800 goal, the total 
number of American men and women in uniform that will start 
next year in Afghanistan according to the current plan if we 
get the Bilateral Security Agreement. And like you, I have some 
concerns about that number, but I have even greater concerns 
about the plan to go to zero by the end of 2016.
    And I think it is actually based on a paradigm or on a set 
of assumptions that I would disagree with. And let me begin by 
saying I think the President has been very patient, as has this 
committee, as have the American people in supporting a long, 
frustrating, ugly mission.
    And it hasn't gone nearly as well as most of us would have 
liked, and yet, I think it has done better than many realized, 
and the importance of the mission remains. And the President 
and the Congress deserve a lot of credit for sticking with it.
    But I fear there is a little bit now of a loss of patience, 
that there is a narrative that says we somehow have to end 
this. And maybe the President feels that he is doing his 
successor a favor by getting out by the end of 2016. But I 
actually worry the President will be taking away tools that his 
successor needs.
    And so the way I would suggest we think about 2017 or the 
end of 2016, this is not a period where we need to pursue an 
exit strategy. It is a period where we need to establish a new 
partnership with Afghanistan.
    We have core American interests above and beyond the 
development of the Afghan National Security Forces, and those 
interests are important themselves. But we have a 
counterterrorism interest in staying in Afghanistan with a 
limited military capability of perhaps a few thousand total 
forces, anywhere between one and four bases.
    For the indefinite future, I see no reason that exit 
strategy or a declaration of the end of America's role should 
be our guiding principle. We have an enduring plan for forces 
in Djibouti. We are probably going to have to do more in Iraq. 
We have forces in and out of the Persian Gulf all the time. We 
had forces in Korea for many decades and still have them today. 
I don't see why exit strategy should be the defining objective.
    And the reason I say this fundamentally is because I cannot 
rule out in my own mind that Al Qaeda is still going to be a 
threat in Pakistan after 2016. And to be blunt, we need places 
nearby from which to attack Al Qaeda even after 2016.
    Now, I would hope very much we don't have to do this nearly 
as much as we did in the past. I am glad to see the number of 
drone attacks and the frequency has gone down. I would hope it 
could continue to go down. But we have seen Al Qaeda and its 
affiliates move and take advantage of new opportunities, again, 
in recent months in the Levant and in Iraq. There is no reason 
to rule out that they might do that again in Pakistan or 
Afghanistan.
    We need tools, especially drones, intelligence, and special 
forces, to be able to address the possibility of Al Qaeda, 
starting with Mr. Zawahiri and working down, using Pakistan or 
Eastern Afghanistan as sanctuary, as planning centers, training 
bases, operational headquarters in the future.
    And to me there is simply no reason that we should think 
that this has to stop or should stop by the end of 2016. Our 
threat assessments are not precise enough and even if Al Qaeda 
and affiliates are stronger now in the broader Middle East and 
maybe a little less worrisome in Pakistan and Afghanistan 
compared to how the tables were different 5 years ago, they 
could change again.
    Al Qaeda as a global movement is a very adaptive, very 
opportunistic, set of organizations. And if they sense an 
opportunity in the tribal areas of Pakistan or Eastern 
Afghanistan again, I believe they could use those kinds of 
geographic locations to do much of what they have done in the 
past. And this includes, of course, the Haqqani Network, a 
number of other groups that are affiliated with Al Qaeda, 
whether or not we describe them by that formal Al Qaeda central 
construct or name.
    And so, just one last point as I make this overall 
argument. When I think about the President's overall approach 
towards Afghanistan during his 5\1/2\ years in office, again, I 
think he has been remarkably patient. He has always felt the 
need to talk about getting out. And it seems that we have 
always been working towards an exit strategy and yet he has 
taken his time to actually make the cuts.
    They have been, as Congressman Smith said, in a staircase 
manner with the support of the committee and others in 
Congress, and I think that has been very prudent. And I think 
that should continue.
    If I look back at 2011--and this committee remembers very 
well the debate from that period of time--in June 2011, as 
General Petraeus was here for CIA [Central Intelligence Agency] 
Director confirmation hearings and John Allen was about to take 
over in Afghanistan, at that time the President announced a 
plan to cut our forces by one-third, from roughly 100,000 down 
to 68,000 by the end of the summer of 2012. So it was going to 
be over about a 16-month period.
    As you will recall, General Petraeus voiced some concerns 
that was a little too quick in his mind, but he thought it was 
reasonable. Some of his friends were encouraging him to resign 
in protest or what have you, but he said, no, you know, 
President Obama has to take a little broader perspective than I 
do as commander. And he said, if it is a little faster than I 
would like, so be it, we can still work within that kind of 
approach.
    We got down to 68,000 troops by the end of September 2012. 
And then, the President made no further declarations of any 
drawdowns until after he had been reelected and gave his State 
of the Union address in February of 2013. At which point, he 
said he would take a full 12 months to get down to 34,000 
troops.
    In other words, there was a certain amount of patience and 
a conditions-based approach. And even if it was a little faster 
of a drawdown than I might have preferred myself, at least it 
had that kind of a logic to it.
    Now I fear that we are lumping everything altogether in one 
plan. So we are getting from our current 30,000 down to about 
10,000 by the end of the year, then we are going to cut it 
again in half by the end of 2015, and then we are going to be 
virtually all the way out by the end of 2016.
    I think it is piling too much on top of competing plans or 
overlapping plans. We would be better off going one step at a 
time and probably planning to keep several thousand forces even 
after 2016, fundamentally, for counterterrorism purposes, even 
if the Afghan forces may not need us as much at that point.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. O'Hanlon can be found in the 
Appendix on page 57.]
    The Chairman. Thank you. Mr. Cordesman.

   STATEMENT OF ANTHONY CORDESMAN, ARLEIGH A. BURKE CHAIR IN 
    STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Cordesman. Thank you, Mr. Chairman, Congressman Smith, 
members of the committee.
    This is the third war in my lifetime where I have seen us 
headed out of a war where we are denying or understating the 
risks in what we are doing, where the United States Government 
is systematically spinning the facts to try to justify a 
structure which is not supported by outside forms of analysis, 
and where we have little real public debate over the strategic 
impact of our actions.
    To be blunt, I think we already have transitioned wrong. As 
was raised by both Dr. Dale and Dr. O'Hanlon, I think we are 
repeating a mistake that I saw us make in Vietnam, that has 
been clearly demonstrated in Iraq. We are rushing advisory 
groups out too quickly, setting levels too low. We are not 
integrating a civil-military plan and we are creating metrics 
which basically are not supported by looking at the facts.
    The problem I have always seen in our approach to 
counterinsurgency is we face three threats. One is the enemy. 
The other is the government and allies that we have to work 
with, and the third is our ability to adapt with some degree of 
transparency and realism to the actual nature of the war we are 
fighting.
    Now, people have mentioned already the accomplishments or 
the gains we have made in Afghanistan. Well, I think the 
problem is, that when you shift from the reporting that comes 
in the 1230 report or USAID [United States Agency for 
International Development] or the State Department and you look 
at the IMF [International Monetary Fund], the World Bank, the 
U.N. [United Nations] and other sources, you get a completely 
different picture of the risks and problems we face.
    You also find something that is totally lacking in U.S. 
Government reporting, which are assessments of uncertainty, 
definitions of where our data come from, and frankly, 
timeliness, because so much of our reporting lags 3 to 6 
months, in some cases even a year behind the current status 
inside of Afghanistan.
    I think that one of the key issues you see almost 
immediately, and this is in the 1230 report, but even clearer 
in the U.N. report. The surge in Afghanistan had none of the 
effects it had inside Iraq. You have not seen a decline in 
violence. You have not seen a decline in casualties. You have 
seen a steady rise in all of these metrics, including acts of 
violence as measured by people outside the ISAF structure, like 
the U.N. and other sources.
    You have seen a rise in civilian casualties that is very 
significant. And you have not seen a decline in the areas of 
conflict. You have seen just the opposite. In the U.N. 
reporting in every area except the south, you have seen a major 
expansion of insurgent activity in terms of acts of violence, 
in terms of casualties, in terms of IEDs [improvised explosive 
devices], and the other measurements involved.
    I think as SIGAR [Special Inspector General for Afghanistan 
Reconstruction] reporting has shown, you have seen very serious 
problems emerge in the training and support effort and 
transition of the Afghan National Security Forces. I don't 
think that these are fatal, but they are real.
    And one of the lessons in both Vietnam and Iraq is 
precisely the issue that Dr. O'Hanlon raised. You need to have 
sufficient advisors long enough to make the transition from 
generating forces to creating effective combat forces.
    If you look at the official U.S. Army history of what 
happened in Vietnam, you will see measured in detail the cost 
of following the course of action we plan to follow in 
Afghanistan. If you look at reports on what happened in Iraq, 
units began basically to collapse, became corrupt, failed to 
support maintenance within a matter of months of the departure 
of U.S. advisers in the field.
    And these were forces considerably better developed than 
the ones in Afghanistan and far less dependent on a police 
force which is roughly half of the Afghan National Forces and 
is rated by every source as ineffective, corrupt, and not tied 
to an effective rule of law structure.
    I think that we are looking at numbers which this committee 
really needs to examine. The public data on the number of 
Afghan-led operations ignored desertion rates, absentee rates, 
in the units involved. They do not characterize who is leading 
what and the definition of Afghan-led even in elite forces like 
Afghan Special Forces is a little amazing because when you go 
to the latest 1230 report, you will see there are 488 Afghan 
Special Forces units or led operations.
    The problem is, if you read into the fine print, 378 of 
those actually have U.S. participation and strong U.S. 
involvement. And defining data is a critical issue even within 
the military in terms of police effectiveness, the 
effectiveness of the ALP [Afghan Local Police]. There is a very 
serious risk.
    But the problem, I think, that is equally critical is the 
civil dimension. One of the things that is stunning is the gap 
between World Bank assessments of the quality and movements in 
governance, the U.N. indications of basic human development 
measures, and the reporting that has come out of USAID and the 
U.S. Government.
    You see a major set of improvements through about 2005, 
2006 in international reporting by the World Bank, the IMF, the 
U.N. You do not see that as being sustained. You see a major 
drop as the level of violence rise. You do not see claims as 
you saw in a White House factsheet that the GNP [gross national 
product] is improving. And the reason, as the World Bank 
explains, is that has been an improvement almost completely 
dependent since 2005 on rainfall.
    So when the White House quoted 2012 for an average 
improvement, that was a great year for the rains. The problem 
was, in 2013, the GDP [gross domestic product] growth radically 
dropped. And I think, frankly, in politics, taking credit for 
the weather may be a little ambitious on the part of anyone.
    The World Bank does not show rising income. The World Bank 
presents just the opposite argument. It is that you have had a 
serious increase in poverty, largely for population pressures, 
largely because of hyper-urbanization, problems with water and 
agriculture.
    All of these are laid out in detail in terms of World Bank 
and IMF reporting. They are laid out by reporting by the 
Afghans. You see a level of dependence on outside aid and 
military spending, which is, again, well-presented in the World 
Bank data and the IMF data.
    All of our aid programs, to the extent we have any plan, 
ignore that economic risk; they are essentially program or 
project aid plans. And let me note, this is now 2014. We became 
actively involved in war and aid programs in 2002.
    We have, in two wars, never had the State Department or 
USAID present any meaningful effectiveness measures of what aid 
has actually accomplished on the civil side. The one document 
in two wars we have is this one, and not one of the statistical 
areas listed can be sustained by an examination of where the 
data came from.
    I think that we face critical problems that we have ignored 
in terms of the infrastructure. We have talked about the ring 
road, we have talked about the improvement we have made, but 
these are not being sustained or maintained. Security is an 
issue, but basically we are watching a lot of that 
infrastructure deteriorate before we even leave.
    We see that we have not done anything to remove critical 
barriers by World Bank or IMF or U.N. estimates to industrial 
development. And again, these are all laid out in detail in a 
formal statement that I would like to have entered in the 
record. All of the data are taken from sources other than the 
U.S. Government to illustrate the issues involved.
    Finally, we are not even coming to grip with the issue of 
dependence on narcotics and power brokers. We are watching a 
steady increase in production, we are watching an increase in 
the area of cultivation, and one of the key problems is that, 
as we pull down on aid and military spending, the percentage of 
Afghan dependence on narcotics has to go up because there is no 
other area of development which the World Bank or the IMF has 
been able to identify.
    So let me close by saying, I do not believe in looking at 
what is a poor developing country, virtually at the bottom of 
the world in terms of rankings of governance and corruption. 
Transparency International ranks Afghanistan as 93 percent of 
the worst country in the world in terms of corruption and the 
ineffectiveness of government after all of our aid and other 
efforts.
    But, if we are going to leave Afghanistan and we want it to 
work, we need to keep the advisers in, we need to keep the 
military spending up, and we need an honest and realistic 
assessment of economic and governance risks that takes account 
of the fact that the only source I can think of that is talking 
about these accomplishments of all the rating groups is the 
United States Government.
    [The prepared statement of Mr. Cordesman can be found in 
the Appendix on page 78.]
    The Chairman. Thank you. Ambassador Neumann.

STATEMENT OF AMBASSADOR RONALD E. NEUMANN, PRESIDENT, AMERICAN 
                      ACADEMY OF DIPLOMACY

    Ambassador Neumann. Thank you, Chairman McKeon, 
Representative Smith. Thank you for your invitation to appear 
today.
    Far too much has been accomplished to say that Afghanistan 
is without hope and far too little is finished to claim that we 
have accomplished our purpose. We are ending our active combat 
participation in a bloody continuing war. We retain a strong 
interest in supporting stability. As we consider how to 
confront the new Islamic caliphate, we should not start by 
losing the war with its Al Qaeda parent.
    There are some positive aspects. Despite white-knuckle 
confrontations, it appears Afghanistan will emerge with a 
peaceful transition of power to a legitimately elected 
president. That individual will have a stronger hand to govern 
and to negotiate because he is broadly legitimate.
    Afghan political leaders, albeit with international help, 
are able to compromise. The Afghan Security Forces, with 
100,000 fewer foreign troops in the country than in 2009, 
credibly managed security through the election.
    I want to focus particularly on those areas where U.S. 
policy and actions can make a difference. My colleagues have 
discussed economic security and politics. There is a 
psychological element that links all three. Afghans and 
neighbors, friends and enemies alike, pay a great deal of 
attention to what they think the U.S. will do.
    When they are unclear, they make policy based on 
assumptions. Our recent policy decisions need to be reviewed in 
that light.
    I support the decision to leave just under 10,000 troops in 
Afghanistan in 2015, although like my colleagues, I wish it had 
been a few more. However, many problems are occasioned by the 
President's having already decided without reference to what 
will or won't happen on the ground that our presence will be 
reduced by half in 2016 and ended by 2017, except for forces 
under embassy control.
    These decisions raise doubts about our effectiveness, about 
what Afghans think they may expect from us, and about the 
future of NATO. The change in configurations will diminish our 
effectiveness. In the next 6 months, our forces will 
consolidate one posture, only to radically change it 12 months 
later, when we shrink to a Kabul base.
    Physically, a lot of work is going to be taken away from 
advising and go into shifting locations and organizations. We 
will become more ignorant of what is going on in the war and in 
governance in the provinces. Most important, these decisions 
radiate doubts about our commitment, since we are going to end 
our mission on the same timetable no matter what.
    Uncertainty gives hope to our enemies, it leads Afghans to 
fight or govern with one eye watching to see what they can do 
to protect themselves if we bail out faster than we now claim 
will be the case, and these considerations affect stability and 
performance.
    U.S. troop decisions need to be integrated with NATO 
planning. We have a double interest in extending the NATO 
mission beyond 2016. First, we will continue to have an 
important training mission that should be shared with our NATO 
allies. That is what the people that are going to stay under 
embassy control are going to be doing. Second, when nations 
have troops engaged, they are far more likely to maintain 
financial support and share the burden of stabilizing 
Afghanistan.
    Therefore, we need to decide how to coordinate the NATO 
mission with U.S. forces under embassy control. Otherwise, we 
will end up with separate parallel and probably duplicatory 
functions, or no NATO.
    We know that many NATO nations are prepared to extend their 
stay beyond 2016, but to stay, they will need support from us 
and that apparently is not decided.
    Finally, I want to stress the interrelationship of force, 
money, and diplomacy. In the recent electoral crisis, our 
diplomacy was undergirded by the very real threat to reduce 
assistance if the crisis worsened.
    The lesson here is really important. Threats alone, which 
was sort of where we started, you work it out or we are going 
home, were not sufficient to resolve the crisis. Diplomacy was 
essential. But it is because of the weight of our commitments 
of military and financial aid that we had real influence to use 
in brokering a process.
    We are not out of the woods. Whatever level of Afghan 
political cooperation has been agreed, will be carried out with 
one eye constantly on future political advantage and power 
politics, as they maneuver against each other. That shouldn't 
surprise us, it isn't terribly unfamiliar.
    The resulting political maneuvers will strongly affect the 
next Afghan president's ability to improve internal governance, 
a critical issue for future stability, women's advancement, and 
economic and justice sector development. There will be a 
continuing need for careful diplomacy to help the next Afghan 
president work through these challenges.
    Maintaining our aid and our presence are vital to providing 
the tools with which successful diplomatic outcomes can be 
built.
    Thank you for your attention and I await your questions.
    [The prepared statement of Ambassador Neumann can be found 
in the Appendix on page 88.]
    The Chairman. Thank you. Ambassador Neumann, it appears 
there is going to be--that there will be negotiations between 
Ghani and Abdullah campaigns or some type of power-sharing 
arrangement.
    Could you provide more detail on what options there may be 
for a power-sharing arrangement? Also, can you describe any 
risks to security in Afghanistan in rushing a political deal 
among the candidates?
    Ambassador Neumann. I want to be careful not to exceed my 
actual knowledge at the moment in an area which is pretty 
opaque. I think there are several different kinds of 
negotiations going on.
    First of all, power needs to be shared no matter who wins. 
That was clear even before the election. I was in Afghanistan 
in March and both Ghani and Dr. Abdullah, and for that matter, 
Sayyaf and Rassul, all said to me that if they won, they 
understood they would have to govern with a broader coalition 
than that that elected them, because the country is still riven 
by political factions at the moment, although not nearly as 
brutally so as Iraq.
    So there is a need to spread out. What you have got now is 
a kind of double-balancing, where on the one hand, you have the 
negotiations over how you are going to count ballots--that 
might remind us of certain Florida events--and at the same 
time, you are using the tension there to play for how you are 
going to get more positions.
    I think there are two risks, but they are manageable. One 
risk is that so much is given away to power brokers in this 
balancing that the next president has a constrained ability to 
actually govern any better than President Karzai has been able 
to do.
    The other is that this process is probably going to break 
down after the election. I am not so worried that you will 
have--can't resolve it. Afghans have shown an incredible 
ability to resolve issues, people who were shooting at each 
other in the ruins of Kabul have managed to be holding hands 
and drinking tea together in the parliament for some years.
    So I don't think at the end of the day that they are going 
to let this go over the edge. They understand how serious it 
is. But I don't think you will get a stable situation out of 
it, because you will continue to see a maneuvering for power.
    And that is where I think our role is really critical, to 
keep reminding them of the dangers of letting this get out of 
control and keep the boundaries in place, which I think we 
could do creatively. We have good diplomats who have done a 
good job. But you have to have assets.
    When you take all the assets out, then you look like Iraq, 
where you are not even jawboning, you are just doing toothless 
gumming.
    The Chairman. Thank you. Dr. O'Hanlon, in my opening 
statement, I made the parallel between the situation currently 
unfolding in Iraq and the potential for something familiar in 
Afghanistan should we pull out too hastily on an arbitrary 
timeline.
    I am concerned that the 9,800 troops are not robust enough 
to support the mission in Afghanistan post-2014, that there is 
a risk associated with the President's decision to go to zero 
on an arbitrary timeline by the end of 2016.
    Could you describe in detail the nature of the risk of 
leaving on an arbitrary timeline? What needs to be achieved in 
Afghanistan before the United States departs with its residual 
presence in your view?
    Dr. O'Hanlon. Thank you, Mr. Chairman. A couple of things. 
First, Tony made, I thought, the very good point that we need 
to stay in the field with Afghan forces. And that gets to the 
question of what the numbers are.
    Of course, commanders have been discrete about their public 
statements, but I think if we read the tea leaves and read 
between the lines, we can tell the commanders would prefer to 
be a little higher than 9,800, but it is not out of the realm 
of at least what you can debate or consider.
    So I think that number is probably low for the reasons, 
again, that Tony is getting at and the reasons that Congressman 
Smith was alluding to with air support, as well as a couple of 
other specific needs. But I am less worried about that, putting 
that aside for the moment.
    What I am more worried about is that, as soon as we get to 
that number, we immediately need to start making plans to cut 
it in half. As Ron points out, that is going to distract us 
from the actual job at hand in 2015, because by the end of that 
very next calendar year, we have to be down to 4,900, which 
means we will be implementing that drawdown in the late summer 
and fall, which means we will be planning it in the spring.
    So there will be no period during which we are actually 
just using that number of 9,800 to do whatever we can do with 
it. We will almost immediately be figuring out how to cut it.
    And then, even worse yet in my eyes is the plan to go to 
essentially zero operational units in the field by the end of 
2016. And there I have my concerns about how we nurture and 
steward the Afghan forces. But I also have my concerns, as I 
mentioned earlier, about the Al Qaeda threat.
    We don't know how to predict where Al Qaeda is going to be 
strongest in 2 to 3 years globally, but I think we can all be 
fairly sure of one thing. It is not going away. And I think 
this committee has been very good at getting that message out.
    We all--a lot of us were hopeful that Al Qaeda was maybe 
not on the ropes, but at least diminishing in overall influence 
2 or 3 years ago. That became a partisan issue. Leave aside the 
partisan issue.
    Empirically speaking, there was a serious debate in 2011/
2012 about whether the global threat was getting a little bit 
less. I don't think there is any such debate anymore. 
Empirically speaking, the threat is very serious and the only 
thing we don't really know is where it is going to be most 
serious come 2016, 2017.
    So, taking away tools to deal with it in South Asia, to my 
mind, is not a logical thing for American counterterrorism 
purposes.
    The Chairman. Thank you. Mr. Smith.
    Mr. Smith. Thank you. Thank you, Mr. Chairman.
    One question in terms of Taliban and Al Qaeda, you know, 
back when the Taliban was in power, they made the deal to allow 
Al Qaeda to be there and they have had an alliance of some 
sorts ever since. As the Taliban are ascended, to what extent 
do you see Al Qaeda being intricately linked with them?
    Let's say that the worst happens and the Taliban take over 
at least some portion of Afghanistan, are able to govern it, 
how would any of you assess the risk that Al Qaeda will again 
be able to enjoy safe havens or that whatever that group of 
violent extremists looks like that the threat would then become 
external, that they would try to attack Western targets, that 
they would try to sort of recapture what Al Qaeda used to do in 
terms of plotting, you know, wars, terrorist attacks against 
Western interests outside of Afghanistan?
    What is that link? It doesn't seem to be as strong as it 
was prior to 2001, but I am interested in your assessment.
    Mr. Cordesman. Mr. Smith, I think that we need to be very 
careful because the Al Qaeda has a sanctuary in Pakistan, and 
that has not been challenged and none of the fighting that is 
taking place in the FATA [Federally Administered Tribal Areas] 
area will be affected, because that sanctuary is in the----
    Mr. Smith. Well, it has been challenged. I mean, witness 
the drone strikes and some other things. It is not----
    Mr. Cordesman. Well----
    Mr. Smith. Yes.
    Mr. Cordesman. Well, the strikes have been essentially not 
on Al Qaeda, however. We have had a challenge in the raid, we 
have gotten bin Laden. But I think the real issue here is Al 
Qaeda was never a controlling force in the Taliban government. 
Al Qaeda central has now been replaced by more influential 
centers of operational activity by Al Qaeda in Yemen, North 
Africa.
    Mr. Smith. Absolutely.
    Mr. Cordesman. It has been displaced by groups like ISIS 
[Islamic State of Iraq and Syria] and ISIL [Islamic State of 
Iraq and the Levant]. I think that quite frankly our concern 
really is not Al Qaeda as much as the fact that, when you look 
at the Haqqani Network, if you look at what is happening in the 
Taliban, there are significant numbers of foreign fighters in 
those groups. They interact with people moving in and out of 
areas like Syria, now Iraq and elsewhere.
    It is not Al Qaeda anymore that is probably the primary 
threat, at least Al Qaeda central, of terrorist attacks outside 
of Afghanistan. It is the flow and interaction of activity 
through the Haqqani Network and the Taliban.
    Mr. Smith. And the foreign fighters as well. The other 
question I had is in----
    Ambassador Neumann. Could I just make a short addition to 
that?
    Mr. Smith. Sure.
    Ambassador Neumann. I think we want to be careful because 
you could get lost in the technical definitions and miss the 
threat, and we also have the problem as we have with the 
expanding threats that we can end up doing policy a little like 
small children playing soccer, where everybody runs to the 
current ball.
    Intellectually, these groups that Tony was talking about, 
the foreign fighters, old Al Qaeda, new Islamic caliphate, have 
a very strong intellectual link. And I think it is a mistake to 
try to be too precise and say that one is a threat and this one 
isn't. I think that begins to exceed our knowledge.
    I think it is also important to remember that there were a 
lot of writings that said, we will get the United States in, 
they will lose the war because they will be exhausted, and we 
will come back. It doesn't mean that they will be back as a 
huge presence, but I think there is a psychological element 
also, which will invigorate the general movement. And we need 
to be careful about that.
    I cannot imagine them not coming back to some extent 
because I don't see any pressure on the Taliban sufficient to 
keep them out when they are useful linkage and ally.
    Mr. Smith. And as Mr. Cordesman mentioned, they are 
beginning to sort of cross-pollinate there. It is not just a 
matter of Al Qaeda; the Haqqani Network or other groups that 
aren't even affiliated with Al Qaeda can still present a threat 
to us.
    I guess, you know, one of the things we really struggle 
with is--and I think, Mr. Cordesman, you did a decent job of 
explaining the limitation in Afghanistan--but how long would we 
have to stay there before those limitations would change?
    It seems to me that we are on sort of a perpetual motion 
machine here. We could go back up to 100,000 troops and stay 
for 20 years and somehow I feel that 20 years from now, 
hopefully a different group of people would be having this same 
conversation about, you know, a corrupt, incompetent 
government, we can't leave because they are not going to be 
able to stand.
    And if that is true, what does that mean in terms of how we 
adopt our policy? I mean, isn't there some sort of containment 
policy that is short of well, we just have to try to stay there 
forever to hopefully keep the lid on this.
    Mr. Cordesman. Mr. Smith, we are already in many ways out. 
And when we talk about advisers, you are talking about 
advisers, not combat forces.
    Mr. Smith. Right, but that dodges the question to some 
extent. Okay, so take us back a couple of years to where we 
were in.
    Mr. Cordesman. Let me just say though that I think the 
honest answer to your question is, until there is some 
resolution of what is a set of religious, demographic, 
economic, and political tensions that now extends, really, from 
North Africa in some ways to the Philippines, we can contain, 
we can limit area by area according to how serious the issue 
is, but this threat is going to remain.
    Mr. Smith. Absolutely.
    Mr. Cordesman. There is no way we can physically defeat it.
    Mr. Smith. But if that is the case, isn't that an argument 
for doing it in more containments. Instead of putting all of 
our eggs, a 100,000 troops in Afghanistan when the threat could 
be in a whole bunch of different places, isn't it an argument 
for coming up with a broader containment strategy where you 
don't try to, you know, put 100,000 in Iraq or 100,000 troops 
in Afghanistan, because in no place can you actually eliminate 
it.
    Mr. Cordesman. Well, I think you are absolutely correct, 
but it--to the extent that talking to people in the special 
forces or the Joint Staff and elsewhere, I think that really is 
their strategy.
    Mr. Smith. Yes.
    Mr. Cordesman. It is to find areas where we do not abandon 
security partners, as Ambassador Neumann, Dr. Dale, and Dr. 
O'Hanlon have mentioned. We create the kind of presence and 
role which is both affordable and sustainable. And we will find 
ourselves with new areas emerging.
    I don't think anyone a year ago would have said that we 
would face a proto-state in eastern Syria and western Iraq. 
People have talked about our progress in Yemen quite frankly as 
optimistically as they have our presence in Iraq--or rather 
Afghanistan. But we are at the point where we can't provide 
sufficient forces to control that threat, we may be able to 
limit it.
    Mr. Smith. Yes, thank you. I want to let somebody else, and 
I yield back. I appreciate the answer. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. I thank each of you 
for being here today. And my hopes for the people of 
Afghanistan are very personal. My youngest son served as an 
engineer there last year with the South Carolina Army National 
Guard. And he was really inspired by the people of Afghanistan.
    My former National Guard unit, the 218th Brigade, served 
for a year in Afghanistan, led by our Adjutant General Bob 
Livingston, and they developed a real identity and bond with 
the people of Afghanistan as Afghan brothers. So I am hopeful.
    Additionally, though, I am so concerned. We certainly 
should remember that it was from the caves of Afghanistan that 
Osama bin Laden directed the attacks against the United States 
on September 11, 2001. Somehow we--the American people have 
forgotten that. They need to remember.
    And, Mr. Cordesman, as you are indicating the spread of Al 
Qaeda across the globe from North Africa through the Middle 
East, Central Asia, and you added to it, the Philippines, too. 
We have people who are dedicated, according to this diagram by 
Dr. Fred Kagan of the American Enterprise Institute, of death 
to Israel and death to America. That is their plan.
    At the same time, again, it is personal, I have had an 
opportunity to visit with our troops 12 times in Afghanistan, 
but something that was, again, very uplifting to me is to visit 
with our diplomatic corps led by Ambassador Neumann. And so, I 
know we have extraordinary people.
    As we face this, I would like to know--the President has 
correctly identified that there was a direct relationship 
between the stability of Afghanistan and the stability of 
nuclear Pakistan. If what--what would be--how could this be 
missed that the President was very clear that this is--the 
instability there could result in extraordinary threat to the 
American people.
    Each of you, if you would comment in regard to the 
importance of the interrelation with Pakistan.
    Dr. Dale. Sir, thank you for your question, and thanks to 
your sons as well for their terrific service. You raised a 
terrific issue. Stability in Afghanistan, many would say, is 
important from a U.S. national security interest perspective 
for multiple reasons. One is the threat of violent extremism, 
violent extremists, who as my colleagues were just discussing 
have found a genial home in Afghanistan in the past and 
currently.
    But in addition, the South Asia region raises other 
concerns for us. One is the prospect, and a very scary one, of 
nuclear proliferation in Pakistan which could be triggered by 
state instability or collapse.
    A stable Afghanistan could go a long way to lowering the 
temperatures and the tensions in the Afghan-Pakistani 
relationship and perhaps bolster state stability in Pakistan. 
And that is something worth thinking about as we make future 
decisions.
    One more facet is the Pakistani-Indian relationship and the 
prospect there of a potential nuclear standoff. Afghanistan has 
traditionally served as grounds for proxy contestation between 
those two states. Again, a stable Afghanistan could go a long 
way to lowering those temperatures and reducing that tension.
    Thank you.
    Dr. O'Hanlon. Congressman, I will just make one brief 
point, which is a scenario that I worry about somewhat if 
Afghanistan were to fall apart, and whether the Taliban itself 
would invite a group like Lashkar-e-Taiba into part of eastern 
Afghanistan or not, I don't know. But if the state collapsed, a 
group like Lashkar-e-Taiba, which of course was behind the 
Mumbai terrorist attack of 2008 in India, could have another 
place from which it could do planning.
    At the moment, it may not need that because, historically, 
of course, the Pakistani security forces have tolerated and 
even helped Lashkar-e-Taiba. But there hasn't been another 
attack like Mumbai in the last 6 years and there could come a 
point where Lashkar-e-Taiba wants more freedom of maneuver to 
operate beyond the controls of the Pakistani state.
    So I would worry that an Afghanistan in chaos could provide 
the sanctuary not only for the groups that might threaten us 
directly, but for groups that might want to start Indo-
Pakistani conflict, and specifically Lashkar-e-Taiba.
    Mr. Cordesman. I think that Mike has raised a key issue, as 
has Dr. Dale. There is something to remember about Pakistan. 
The United States State Department Report on Terrorism ranks it 
as having the highest level of terrorist incidents of any 
country in the world. Almost all of those incidents are not 
related to any aspect of Afghanistan.
    Many of them take place in areas that have nothing to do 
with the FATA area. It is an economy which basically faces a 
crisis because of demographic pressures, because this is a 
country that spends less on education than virtually every 
country in the world. It is a country which is always on the 
edge, in many ways, of being a failed state.
    It is also a country where we don't seem to tie our 
strategy to Pakistan to our strategy in Afghanistan. It 
virtually went unmentioned in the Quadrennial Defense Review, 
there is no mention of it in the West Point speech, and we are 
cutting aid very seriously.
    Most of that military aid never went to counterinsurgency. 
It went to buying equipment to fight India. And as is the case 
in Afghanistan on the economic side, in spite of efforts by the 
Congress over the last 10 years, we have never had a single 
report from USAID to explain what the benefits or impact of the 
economic aid to Pakistan has been. And quite frankly, it is not 
quite clear what the program did.
    The questions you raised are very serious, but we have a 
Pakistan problem, and not just an Afghanistan-Pakistan problem.
    The Chairman. The gentleman's time expired. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you all for 
being before us today. I just want to try to understand whoever 
or as many of you who want to answer this question, what do you 
think--what is the real assessment of the capability of the 
Afghan National Security Force?
    Where are their gaps in capability? What key resources do 
they need? What is it that the international community needs to 
do in order to get them to a point where they can really do 
things on their own?
    Ambassador Neumann. I want to make a couple quick comments, 
but Catherine is the one who runs around the most out in the 
boonies. But I think first of all, as Tony was talking about 
with the police, you have got considerable variation in forces.
    It is important to remember how little time we have 
actually been at this. When I left Afghanistan in 2007, my 
official departure, but I keep going back, we were building 
less than 200,000 forces for the total of Afghan security 
forces. We had 600,000 in Iraq already under arms.
    We didn't raise our level of building until the decisions 
of 2009. And given our budget processes and our political 
processes, that means those people start coming on line in 2010 
being recruited. For your advanced equipment, your logistics, 
that doesn't even start arriving until 2010 because you all 
have to appropriate money, contracts have to be signed, stuff 
has to be built.
    So you are actually looking at a force generation process 
that is about 4 years old for the majority of the force. And we 
tend to forget that because we think, well, we have been at 
this 13 years, why is this so screwed up.
    Secondly, I remember very clearly when I visited in 2010, I 
was getting a lot of briefings that we were not even beginning 
the development of most of the--what we call the enablers, the 
logistics, the medevac, the artillery, because we were using 
every inch of space in basing to create infantry so we can get 
them into the fight.
    But there was no big neon sign in 2010 that said, hey, we 
are going to quit this in 2014, you are done, or 2016.
    Ms. Sanchez. But, Ambassador, the capacity.
    Ambassador Neumann. Okay.
    Ms. Sanchez. What is our current capacity?
    Ambassador Neumann. Their capacity--okay, their capacity 
is----
    Ms. Sanchez. That is really my question, because I got news 
for you.
    Ambassador Neumann. Yes.
    Ms. Sanchez. I have talked to plenty people, plenty of 
people who told me that, you know, all these numbers that we 
saw over the years, hundreds of thousands of people recruited, 
we were recruiting 63-year-olds, we were recruiting people who 
were illiterate.
    You know, I would really want to know what is their 
capability and what do we have to do to get them into place so 
that we can get out of there.
    Ambassador Neumann. Tony will tell you in great detail that 
our statistics are rotten, with which I agree. The overall 
ability to fight has been fairly high. The variance is extreme 
so that we have a huge amount of anecdotal evidence--you know, 
Afghanistan is a place where if you have your mind made up, you 
can find the anecdotes that fit your belief.
    What we don't have is the air support that we have had. 
What we don't have yet developed is casualty evacuation. We 
don't have well-developed targeting and intelligence processes, 
all of which are things we started very late.
    We have a lot of willingness to fight when you contrast--
and you can--we can debate this pretty long because it will be 
different with different stories. But the point I would make 
is, when you look at the falling apart of the Iraqi army in the 
last year, you are not yet seeing anything equivalent to that 
with Afghan units in the fight. That is a fairly high degree of 
willingness to carry out the battle.
    But the competence question and the effectiveness question 
are much, much harder to get at and we are still, I think, in 
fairly early days to measure that.
    Ms. Sanchez. Thank you. Does anybody else on the panel 
have--before I lose all my time here?
    Mr. Cordesman. Very quickly, in two wars, Iraq and Vietnam, 
we discovered the hard way that all of the metrics we had in 
generating forces, as Ambassador Neumann, did not give us a 
measure what happened when we left and they went into combat.
    The truth is, we can't answer your question until we 
actually watch them seriously fight on their own. And if we 
don't have advisers or presence that is with those units, the 
historical case is, the chance of their collapsing, or a 
significant amount of the order of battle collapsing, is very 
high.
    Dr. Dale. Ma'am, thanks for the question. Just two words: 
my colleagues are kind; I've spent a lot of time on the ground 
with Afghan army and police commanders over 5 years in a lot of 
different parts of the country. They are capable, they are 
confident, they integrate their efforts much better than they 
did, and they have been successful operationally, in particular 
over the last year, but they do lack some key enablers.
    As we draw down and stop providing our enablers for their 
use, there will be a gap before their own enablers are fully 
online. And then more fundamentally, they need institutional 
systems that can support them, and those are not fully in 
place.
    That is a key focus of the campaign, including beyond this 
year, going into Resolute Support, helping Afghans build those 
systems that my friends and colleagues here have talked about. 
But it takes work both in Kabul and out on the ground for end-
to-end integration, and there is a question about how long we 
are going to be able to sustain that; current policy calls for 
us to pull back to Kabul by the end of next year.
    It is a great question. As Tony points out, how will we 
know how much is enough, but also how much time we will have.
    Thank you.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. And really to build on 
what you were just testifying to, you know, I had a son in 
Afghanistan for 15 months in--I think around the 2006, 2007 
time period. And then I had two in Iraq right at the drawdown.
    And my concern is, we don't want to create the same 
situation that we currently have in Iraq. And I know that you 
have struggled to try to explain what we think the capacity is 
of the Afghan national forces, and I think you do have 
different motivation on the fight level, I will tell you.
    But what do you think--and I have heard you, you have all 
talked about this. You know, we are drawing down to 9,800 and 
then we are drawing down to half of that. It seems like all the 
planning that is going to take place is going to be not 
planning about how we sustain, but planning on how we get out.
    How does that put us in a sustainable position? And I would 
like to hear from any of you what you think that causes us to 
do or not do.
    Ambassador Neumann. Real quickly. It does not put us in a 
sustainable position. And the doubts it creates about us 
directly undercut effectiveness. When people look over their 
shoulder to think are they about to be let down, then they are 
not putting their back into the fight.
    So there is not one answer to how good they are, because 
the answer is partly a reciprocal of how much confidence and 
faith they have in support. Just as troops going into battle 
think a lot about whether they are going to be inside or 
outside artillery range or air cover or the other things. That 
is a reciprocal.
    Mr. Cordesman. If I could just say from Vietnam and Iraq, 
one of the key lessons we should have learned and haven't is, 
once you generate forces, you have to keep advisers with them 
in the field long enough for them to actually become a fully 
functioning force.
    Under the current plan, we will not come close to that. 
With 9,800 people, we can advise at the core level. We cannot 
put people into the field. If we cut it down to half that at 
the end of 2015, we will have rushed forward through a plan 
which originally was supposed to have advisers through 2018.
    And as Ambassador Neumann pointed out, this really started 
in 2009. And if you go back to testimony before this committee, 
you were only at about 60 percent of the required advisers even 
in 2010.
    Mr. Nugent. So let me ask you this. At the 4,800 level, 
what exactly can they do? What can those U.S. troops provide?
    Mr. Cordesman. Pack.
    Mr. Nugent. Pack.
    Dr. O'Hanlon. Yes, I don't like that number. I think it is 
good that you are honing in on that aspect of the plan, because 
it strikes me as a somewhat meaningless number. It is in the 
rough range of what I think should be our enduring force past 
2016 for counterterrorism purposes, maybe a little bit bigger 
than would be absolutely required, but roughly in the range 
that I probably want to see the next American President 
sustain.
    But as a halfway point between 2014 and 2016, it seems to 
me that it is really just, you know, a packing-up force, 
because it hasn't yet had a clear mission defined. And 
presumably, we need that 9,800 force for something. In 2015, 
they are not going to have time to do whatever they are being 
asked to do.
    Mr. Nugent. But doesn't all this really relate back to what 
our foreign policy is or the lack of, I think, a cohesive 
foreign policy? Doesn't this kind of speak to that and 
particularly to our friends and to our enemies as to what our 
true, I guess, where we come from as to what we are willing to 
do to help our friends and to sustain a relationship?
    Dr. O'Hanlon. Can I just add one point on that. Thank you 
for putting it that way. I feel like collectively as a nation, 
we have shown a lot of patience in Afghanistan.
    Mr. Nugent. I agree.
    Dr. O'Hanlon. And it is--and we should keep it going. And 
it feels to me like we are losing our--the patience we have 
had. And people like to say America is not a strategically 
patient country. I see a lot of patience in our country. We 
stuck with Korea for many decades when it was still essentially 
a dictatorship.
    We stuck with a lot of messy friends in the Middle East 
because we had no better alternative. In Afghanistan, we have 
been at it for now two Presidencies and several terms, and that 
has been, I think, to our credit, because we haven't figured 
out a strategy that has really given us a resounding success, 
but we kept at it. Now we are losing our patience and I don't 
think that is smart.
    Mr. Nugent. Well, and one of the things and, lastly, that I 
am concerned about is, as a parent of those that actually have 
to go out and project that force is I want to make sure that 
they have the ability to protect themselves.
    You know, when my kids were over there in Iraq leaving--and 
one of my sons, you know, they lost five members of that unit 
from an IRAM [improvised rocket-assisted munition] attack the 
night I was there. And they knew where the bad guys were laying 
their heads and the Iraqi Government had to okay the ability to 
go out and get those folks and they were stopped from doing 
that, from protecting their own forces because Iraq, as corrupt 
as they are, were protecting those particular minorities.
    I yield back. Thank you very much.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Excuse me. Thanks to you all for being here. In 
response to the last question, I think trying to understand 
sometimes what really was different in those countries, I 
wonder--and particularly having this, Ambassador Neumann here--
was there a real difference in how we saw the role of civil 
society?
    I think one of the frustrations that Americans have is they 
didn't see a functioning government. They didn't see the 
ability of governance throughout the country, even where you 
might have a kind of remarkable governor, you didn't have the 
support for that governor, you certainly didn't have the role 
of women put on any kind of--not even an equal footing, but at 
least some acknowledgment of.
    And I--you know, we just talked about South Korea and 
sticking with South Korea. Do you think that there--what role 
does the, our perception of civil society in Afghanistan play 
in all this? And do you see any changes?
    What should our embassy look like there if we sustain the 
level of support that we are talking about? We obviously need 
the ability for some kind of counterterrorism activities, but, 
you know, what role does the embassy play on that? Where do we 
anticipate that we will have a different kind of outlook 
because we hopefully have had--maybe even a perception of a 
transition in terms of the election.
    Where does that play and what can we do about that? What 
should we be doing about that? How should we see that and how 
should it be different and not normal, as I think the President 
has said?
    Ambassador Neumann. Thank you. It is an important question. 
I think actually we have had more integration of effort. We 
tend to talk about and be focused on the military so much that 
there is very little understanding of what we are doing in the 
other places.
    Having said that, though, we are flighty and impatient and 
we want to--often we want to see change in civil society and 
governance, which is important. But we demand a rate that is 
probably impossible, that has never happened in any country 
developing from similar circumstances, and then when we don't 
get it, we get disgusted and we throw up our hands.
    So the first thing we need is a longer term plan with a 
longer term basis of understanding that when you are talking 
about societal change, you are talking about something that 
takes a long time. And in fact, a lot of your training and 
education doesn't produce immediate effect, but it builds up, 
and then the effects come in if they come, and you can't be 
certain, later.
    In the civil society area particularly, there has been a 
huge amount of development. But we have by our project approach 
created a project-driven civil society groups which tend to ebb 
and flow depending on the dollars and where the projects are, 
rather than sort of working out their own priorities. We need 
to help stabilize that.
    There is a big development in women's programs. It is very 
uneven. It is strongest in the urban areas, weakest in the 
rural. We have tended to be too dominant in trying to lead it 
rather than support what they lead, and I think not always very 
effective.
    In the NATO planning, it tends to----
    Mrs. Davis. Excuse me, Mr. Ambassador, if I could interrupt 
for a second.
    Ambassador Neumann. Yes, please.
    Mrs. Davis. Because I think one of the other issues that 
clearly has been a problem is accountability in terms of many 
of those programs, as you say, sort of the target.
    Ambassador Neumann. I am sorry. When you say 
accountability, you mean political accountability of Afghans or 
dollar accountability in our programs, as I want to make sure I 
am speaking to your question.
    Mrs. Davis. It is probably both. I mean, I think that we 
have not developed very good tools for evaluating whether or 
not anything is working. And so, that complicates whether we 
actually can be more aggressive in how we proceed.
    Ambassador Neumann. Our tools are not good. Tony has talked 
about that. And if you will give a chance he will talk a lot 
more.
    But I also think that we sometimes demand tools that are 
unrealistic, that we--you know, we can measure how many schools 
are built but it is very hard to measure the quality of 
education coming out of them which is actually the only thing 
that really matters. And I don't think we are--I think we have 
a lot of trouble developing that, but some of that is 
legitimate trouble.
    Mrs. Davis. I was going to try and ask Mr. Cordesman but 
I--unfortunately my time is up, to respond and I know you are 
frustrated about that issue as well.
    Thank you.
    Mr. Conaway [presiding]. Mr. Coffman, 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    You know, obviously, we can't--one mistake we made in 
Afghanistan, we have made--but, you know, it is--but I have a 
question about how realistic is our policy there, how realistic 
is our objectives given the political culture of the country.
    You know, it seemed to me that what the Bush administration 
did first was brilliant. That we were attacked in 9/11. That 
the Taliban who controlled much of the country gave safe harbor 
to Al Qaeda that planned their attack and operation from that 
area.
    We then, after 9/11, we supported the anti-Taliban forces, 
the Northern Alliance, who pushed the Taliban out of most of 
the country, I think. And then I think we made a big mistake. 
Instead of saying to the Northern Alliance, the victors on the 
ground, you are in charge now, and you ought to probably expand 
out your governance to make sure all of the factions in the 
country are included. I think we pushed them aside and 
superimposed a political process that gave the people of 
Afghanistan the government that we wanted them to have.
    But it is what it is.
    And one question I have for you, after the Soviets pulled 
out, and I think the Government of Afghanistan that they 
established failed. After they ceased supporting the 
government, after the Soviet Union dissolved, what, how 
dependent--after 2016, assuming that U.S. forces are out there, 
how dependent will the Afghan Government be on continued U.S. 
support in order to sustain itself? And what happens if we 
don't?
    Dr. Dale, we will start with you.
    Dr. Dale. So thank you for the question.
    Right now Afghanistan is extraordinarily dependent on the 
international community, not only to sustain the Afghan 
National Security Forces, but for most everything else that the 
government does.
    The international community has pledged support for an 
additional 10 years, the decade of transformation out to 2024. 
But those pledges face competing exigencies in national 
capitals. And in any case, quite frankly, that is not a 
permanent solution.
    What the ideal would be a way for Afghanistan to pay, more 
or less, for its own security, and that requires an Afghan 
economy that can generate revenues, collect those revenues, 
execute budgets in a reasonably accountable way with, ideally, 
diminishing international community assistance over time.
    I think--I call it the elephant in the room because I think 
that it is, without international community funding for some 
period over the next years, security in Afghanistan is likely 
to fall apart and perhaps with it the Afghan state.
    And so, I think what we urgently need is a real dialogue 
about what those costs actually look like, what international 
community commitment might be, and what the plan is to help 
Afghans cultivate their own and grow an economy that can 
eventually sustain security there. Our decision in any case may 
be not to engage. But that is the conversation, I think, that 
we need to have.
    Mr. Coffman. Dr. O'Hanlon.
    Dr. O'Hanlon. Just one brief word, if I could, Congressman.
    I think Afghanistan will crucially need our continued help. 
And I actually think the committee and the Congress have played 
a very constructive role therefore in empowering Secretary 
Kerry to do what he just appears to have done, at least 
temporarily averting electoral crisis, because I think Afghans 
understand the message, that they need our help, and that you 
are not going to provide if there is a hijacking of the 
election process or a breakdown of the state.
    And I think this is understood by people like Dr. Abdullah 
and Dr. Ghani, which is part of why Kerry has leverage when he 
goes and demands some kind of a compromise.
    Mr. Coffman. Mr. Cordesman.
    Mr. Cordesman. I think that the World Bank estimates that 
the Afghan Government under a much tighter funding profile than 
the Tokyo Conference called for would be at least 70 percent 
dependent on outside aid and money through at least 2020.
    I think that the other problem we have seen is that where 
we expected the Afghan Government to improve its fundraising 
and ability to manage assets it has actually declined 
significantly in the last year and a half, according to World 
Bank and other estimates.
    We either provide them with continuing support or on the 
military and civil level this structure collapses. That doesn't 
mean they aren't improving. It doesn't mean they can't make 
this work. But you can't go from a plan that extended to 2020 
to one that doesn't have a plan at all for the future and 
really expect success.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Conaway. The gentleman's time has expired.
    Ms. Speier, for 5 minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    I thank you all for your astute comments. One of you, I 
think it was you, Mr. Neumann, Ambassador Neumann, had 
indicated that power must be shared. And it appears that they 
are moving in that direction with Mr. Abdullah and Mr. Ghani.
    But there is no reference to the Taliban. And as we move 
forward in this new world order in Afghanistan, does not the 
Taliban have to be part of the shared power within the country?
    Ambassador Neumann. This question of negotiations obviously 
has a two-part piece. Ideally, you need a political solution. 
You only get a political solution though in this kind of war 
when both sides reach the point of believing that they can't 
achieve their maximal positions through force, and then they 
get to negotiations.
    Whether you can have successful negotiations with the 
Taliban is a big question but it is actually it is an umbrella 
term for multiple groups which are within it and with some you 
can probably get negotiations. But there needs to be a clarity 
of process. That will have to be addressed by the next 
government because the current one is out of time.
    I think a key piece of that is going to be our own 
consistency of support. If the insurgents think they have an 
easy job waiting us out, you have a very different dialogue 
inside the insurgency about whether to engage in negotiations 
from one that happens if they think that they don't even have 
that luxury because we are staying around. So we lose a lot of 
our pressure on them by the lack of clarity about our long-term 
intentions.
    The second question of course is whether they are prepared 
in fact to make any kind of a deal; whether you could have a 
shared relationship with a Mullah Omar, I think, is pretty 
questionable, no matter how necessary it is.
    But there is room for opening. That of course is something 
that interested President Karzai a lot. It is one about which I 
think Dr. Abdullah and the northerners are particularly 
sensitive and question whether it can be done. But it can only 
be explored if there is a sense of firmness.
    You have got to have the position that I think late Prime 
Minister Rabin expressed once when he was asked how can you 
negotiate with terrorists, and he said, I have to negotiate as 
though there is no terrorism and I have to fight terrorism as 
though there are no negotiations.
    You have got to be able to go full bore on both tracks 
without letting one handicap you or cripple you on the other.
    Ms. Speier. Do any of you have additional comments on that?
    Dr. Dale. Ma'am, thank you for the question.
    It is important for Afghans, first of all, to think about 
how this conflict genuinely comes to an end. It is not with our 
unilateral withdrawal and it is not with a great victory on the 
battlefield. It is in some form of reconciliation over time.
    What I would suggest though, that it may be worth thinking 
about, is that the first requirement is for reconciliation 
within Afghan society. That is first of all a resolution of the 
current political impasse. But an increasingly inclusive, 
dynamic, vibrant Afghan national dialogue about what that state 
is and what it becomes, together with checks and balances that 
can hold the system accountable, is a better foundation for 
reintegrating Taliban and other insurgents than a fractious, 
torn polity like the one that we currently have. It might make 
sense to think of this then as a longer term process over time 
rather than a deal that ought to be cut tomorrow. Thank you.
    Mr. Cordesman. If I could add just one quick point. We 
really need to start thinking of what happens if beginning in 
2015 the central government runs out of the money that has 
preserved political unity and kept the structure together. And 
that is a very real prospect at this point.
    Dr. O'Hanlon. And my one quick point if I could is that 
because of uncertainty about money, uncertainty about the 
battlefield as we draw down, I don't think the Taliban, at 
least not Taliban Central, is likely to be interested in a 
negotiation for 1 to 2 years at a minimum. So I think that is 
one more argument in favor of strategic patience in my book.
    Ms. Speier. All right, my time is expired.
    Mr. Conaway. The gentlelady yields back.
    Dr. Wenstrup, for 5 minutes.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Mr. Cordesman, you, I think, answered one of my questions 
already which referred to aid to Pakistan, but not only 
Pakistan, wherever we are giving aid. I have always wondered 
where we can go to find the information that tells us what the 
goal of that aid would be and what the results of our aid have 
produced. If I understood you correctly we really don't have 
that information. Would that be correct?
    Mr. Cordesman. We were supposed to, under Secretary 
Clinton's QDDR [Quadrennial Diplomacy and Development Review], 
have USAID and the State Department develop and report on 
effectiveness measures. That commitment was made by both 
agencies. They have produced no product and no results.
    Worse than that, if you go back to 2009, 2010 in areas like 
governance, in some aspects of aid we were providing maps by 
district to progress. When that progress did not continue 
because of the fighting we stopped publishing the maps.
    And if you look at the reporting of SIGAR and the GAO 
[Government Accountability Office] they have, again and again, 
raised specific areas we could do this. The problem basically 
is not that it is impossible, as Ambassador Neumann points out, 
it is not precise, you have to make judgments. The real problem 
is that people seem to be much more interested in reporting 
success that doesn't exist than making success actually happen.
    Dr. Wenstrup. When was the last time we had an actual 
report?
    Mr. Cordesman. The only report that aside from the 
President's fact sheet, which came out when he gave his speech 
on Vietnam, was this color comic that was provided by USAID 
which creates all of the usual nonsensical data about GDP, 
education, and the rest. Other than that, the 1230 report does 
not have any report on the effectiveness of aid. USAID doesn't 
report, the State Department doesn't report, and the U.N. 
organization, which is supposed to report on aid effectiveness, 
has never issued any report on aid, even in dollar terms.
    Dr. Wenstrup. Thank you. You know, we were talking about 
role of Taliban. And I look back at the first election that 
occurred in April. And Secretary Hagel was here and he 
mentioned how well things went and how the Taliban was 
virtually ineffective in trying to foil that election.
    And, you know, what occurred to me as a military person 
with some idea of strategy, if I am the Taliban I lay down 
because if that--if the idea that we say that everything is 
okay here, we are more likely to leave, and not press having a 
greater presence. And that was what he was saying at that time, 
that basically things are pretty good. They had that election, 
it is okay.
    You know, understanding this enemy a little bit, that would 
be the approach that I would take, and from what I am hearing 
today is that we really don't know what the Taliban is still 
capable of or where they might go. Does anyone care to comment 
on that?
    Mr. Cordesman. If I can make just a quick--the U.N. 
casualty report, IED reports, show that today's level of 
violence in every part of Afghanistan, broken out into nine 
different areas, is higher than it was in 2011, sometimes by a 
factor of five. Now these numbers are not that high. But, yes, 
we have a lot of data on the level of violence and it doesn't 
show we are winning.
    What we don't have, and this gets back to your military 
question, insurgency and counterinsurgency is essentially a 
political struggle. Every metric we have is a tactical metric 
without any metric of government influence, or Taliban and 
insurgent influence by district.
    Dr. Wenstrup. Anybody else?
    Dr. O'Hanlon. If I could add one point, Congressman. The 
way I would generalize the overall situation on violence is 
first of all to agree with Tony's point, there is a lot we 
don't know and there are some negative trends.
    And also I would emphasize the Afghan forces have taken 
tremendous losses in the last couple of years, 4,700 fatalities 
last year. It is not a number that ISAF has wanted to 
publicize, although they don't classify it either.
    I actually think we should talk about it more, because to 
me it proves they are willing to fight for their country, with 
all the caveats and concerns that they may or may not hold 
together as we draw down.
    But I also would say and Tony may disagree, but I think I 
am saying something consistent with his point because he did 
say the overall absolute levels of violence are not that high 
statistically compared with certain other combat zones. But 
even though some of the trends are worrisome, Afghanistan 
cities and major roads are actually not that bad, certainly by 
the standards of war zones, even by the standards to some of 
the more crime-ridden societies in Latin America today, for 
example, or in certain parts of Africa.
    So there is a basis for hope if that Afghan force can hold 
together and sustain those high casualty levels and keep 
finding recruits and not fracture because of political 
disunity.
    Ambassador Neumann. Could I just add a couple of things 
quickly.
    I have seen over the years us speculate that the Taliban 
will, at this or that point, lay back and wait for us to leave. 
I have never seen them do it. And frankly I think they have a 
lot of trouble doing it because they can't concede the ground 
for the development of authority.
    In the election they made a quite concerted effort to 
prevent the election. They had a difficult issue they had to 
manage which is doing it without so far alienating Afghans at a 
kick-back. But there were actually a lot of attacks on the--
especially on the first day of the election.
    And one of the interesting things was to the degree to 
which the Afghan press refused to publicize it, in part because 
they were angry at the killing of a journalist in the Serena 
Hotel, and they simply said we are not going to help you 
discourage our election. And they really put practically a news 
blackout which really frustrated the Taliban.
    What you are seeing now, I think, is pulling out as many 
stops as they can to have as many attacks as possible in as 
many parts of the country, both high profile and taking on the 
Afghan army. And I think it--we are really going to have to 
wait out this fighting season and then do some kind of serious 
analysis rather than trying to do an incident by incident and 
anecdote by anecdote discussion.
    I think you are probably looking at something that is going 
to be called the Battle of Helmand, that is a 3- or 4-month 
engagement in various places. And we are going to have to 
assess on that basis at the end of time, both in terms of 
competence in forces, as well as competence in leadership, as 
well as fighting will.
    So far I would say we are doing moderately--Afghans are 
doing moderately well, but we are a long way from where we 
should even be trying to make that judgment, frustrating as 
that is, I think, for people who would like an instant answer.
    Mr. Conaway. The gentleman's time has expired.
    Mr. Barber, 5 minutes.
    Mr. Barber. Thank you, Mr. Chairman, and thank you all for 
being here today.
    Recently with my colleague and others we spent some time in 
Afghanistan and I have to say I, you have to be there on the 
ground to realize how challenging the situation is for our 
troops and for the diplomatic corps.
    I remember being rushed from the airport to the embassy in 
armored vehicles, and once we got there realized that the 
embassy is essentially a fortress. You work there, you live 
there, you rarely go off--one young man who escorted us said he 
has been off once in 8 months and that was because he had a bad 
tooth that needed to be taken out.
    So that is the situation now with, you know, there was a 
pretty substantial number of our troops still there. We went 
out to Camp Leatherneck where a Marine Corps and British Army 
are training the Afghan Army to protect their country.
    And I must say I was impressed with that, as well as the 
way in which they essentially protected their election process. 
I was quite skeptical when I saw what was happening out there, 
but I think they acquitted themselves fairly well.
    So that is what I saw just in my brief visit. And I think 
it is affirmed by many other observations about the current 
situation where we have an essentially, you know, a pretty 
substantial number of troops on the ground.
    And I am concerned about, obviously, as we all are of what 
happens with the election process and where we end up. And then 
I want to also focus my question on the relationship with 
Pakistan and Afghanistan.
    Two questions. First of all, would you comment on where you 
think this election process is going? I mean, Secretary Kerry 
apparently forged an agreement which may or may not last 
between the two presidential candidates. The audit is going on. 
Comment, if you will, on where you think we end up. We have an 
agreement that was worked up by Secretary Kerry to have the 
president and the loser, if you will, share power in a sense.
    And then secondly--and this is really the more important 
question for me. It has to do with the relationship between 
Afghanistan and Pakistan. Obviously there will be some changes 
when the new President takes office. And we have seen over the 
course of the last decade that security at the border between 
Afghanistan and Pakistan has been interdependent on both 
countries' efforts of fighting terrorism in the border regions. 
However, the relationship between the two countries has ebbed 
and flowed over time.
    And as Pakistan continues to depend on U.S. military, 
economic support, as we draw down our forces in Afghanistan, 
how can we work with, how can we encourage more Pakistani 
involvement in security at the border, and how do you see 
Pakistan engaging with the new Afghan Government? I think this 
is an essential question going forward once we leave. Can they 
work together to make the area more secure?
    Could you respond, any or all of you, please, to those two 
questions?
    Dr. Dale. Sir, thank you for the questions and to comment 
on your second.
    The relationship between Afghanistan and Pakistan is 
clearly very critical. The good news is that both states in 
theory have strong vested interest in the same thing, right, 
regional stability that is to everyone's benefit, economic 
growth and opportunity--so that is a good starting point.
    But in practice there is a fundamental lack of good faith 
up at the strategic level and what we see, that exacerbates 
every time there is a tactical level dispute at the border, for 
example, it very rapidly escalates and runs the risk of 
something much greater.
    ISAF under NATO has played a terrific role in facilitating 
mil-to-mil ties at the tactical level at the border, at the 
operational level in terms of combined planning, and also up at 
the strategic level in terms of contacts between Afghans and 
Pakistanis and that is a great start.
    It is hopeful. And those conversations can yield practical 
progress that may be a helpful foundation for the future, but 
it still leaves out the lack of confidence and good faith up at 
the strategic level which is fundamentally a political problem. 
And so it is worth thinking about, from a U.S. Government 
perspective, if we are concerned how we continue to engage not 
only from a military perspective, but with the other 
instruments of national power to help shape that relationship 
in the interests of stability.
    Thank you.
    Mr. Barber. Thank you, Doctor.
    Mr. Cordesman. The problem I would say is that start is 
purely political at the top. In the field you--actually in the 
FATA area have a significant number of people fleeing Pakistan 
because of a Pakistani operation in the border, going back into 
Afghanistan, and at this point making our problems worse.
    The history of how the Pakistani army also fights is 
basically drive out the civilian population, arrest or kill 
whoever is left, some of which is probably innocent civilians. 
And then as in the case of the Swat you end up going back to 
pretty much the problems you had at a lower scale.
    At this point too Pakistan is competing actively with India 
for influence over Afghanistan on terms, for example, that the 
Afghan Government sees as a major threat. So we have to be very 
careful. What Dr. Dale points out is the world that should be, 
the world that exists in the middle of transition is moving in 
exactly the opposite direction.
    Ambassador Neumann. I am not sure----
    Mr. Conaway. The gentleman's time has expired. If the other 
witnesses would like to submit a written response that would be 
great.
    Mr. Barber. Thank you, Mr. Chairman.
    Mr. Conaway. Mr. Jones, for 5 minutes.
    Mr. Jones. Mr. Chairman, thank you very much. And I thank 
the panel for being here today. And I went to Walter Reed about 
4 weeks ago to visit the wounded and I saw three Army soldiers 
who had lost one leg each from Fort Bragg, not my district. I 
represent Camp Lejeune, Cherry Point Marine Air Station.
    Then I visited the two Marines from my district in addition 
to the soldiers and one had lost both legs and an arm, 23 years 
of age. The other Marine I saw was 24, very proud of his 8-
month-old little baby girl who was not there obviously. She was 
home with her mother. He had lost both legs and is going to 
have to have his rectum rebuilt. I wonder what it is all about.
    I listen to you very carefully. I know you have different 
views but to think that we have accomplished any great success 
is absolutely ridiculous based on history. I am looking today 
in the Washington Post where it says, ``Afghanistan may have 
lost track of more than 200,000 weapons''; 200,000 weapons, 
that is the security force. They say in the article we have no 
idea what the police force has lost. I doubt if those weapons 
are going to anywhere but our enemies within Afghanistan, maybe 
a few outside.
    And then Mr. Ambassador, I appreciate your patience on 
Afghanistan. Obviously you have got the experience I don't 
have. But let me give you another title. ``Is the Pentagon 
Wasting Taxpayer's Money in Afghanistan?'' Then another title 
is, ``The United States Military Was No Match for Afghan 
Corruption.'' Then the last one I want to read to you the title 
is, ``Money Pit, the Monstrous Failure of U.S. Aid to 
Afghanistan.''
    These are all articles this year, 2014. And then we hear 
today, you are the experts. You are with think tanks, some of 
you, you have had experience being as the ambassador. And yet 
we continue to play the game we are changing Afghanistan. Am I 
worried about the terrorists, the jihadists? Absolutely I am. 
That is why if Saddam was still sitting in Iraq we wouldn't 
have the problem that we got there now.
    Yes, was he an evil man? Absolutely. But the world we live 
in is not like America. It is not going to be like America. And 
when I look at the history of Afghanistan and going back to 
Alexander the Great and all the great nations that tried to 
influence and to occupy Afghanistan, they all failed. And we 
can play this game with the taxpayers, spending all their 
money, and quite frankly, we all know it is not our money 
anyway.
    We are a debtor nation. We are borrowing from China, Japan, 
the UAE [United Arab Emirates], to pay our bills. That is why 
we have these debates about raising the debt ceiling every year 
so we can borrow more money to pay the bills from last year.
    This brings me to my point. What in the world are we trying 
to do when other countries and this is from your report, Mr. 
Cordesman, and I read the subtitle, ``The second threat is the 
mix of weakness and failures in the host country and a lack of 
commitment from our key allies.''
    Why is Uncle Sam, meaning the taxpayers of America, taking 
this burden on and continue a 10-year agreement known as the 
Bilateral Strategic Agreement to keep a commitment going and 
you would sit here--I might not be here. You will sit here 3 or 
4 years from now and tell the same story.
    Where is the honesty in an evaluation of the policy when 
some people like you would come and say, you know, we need to 
take what we take, cut our losses and let's take a different 
view. I am all for the statesmanship. I am all for working with 
other countries and let them share the lead and the burden, and 
the pain of our country.
    But, Mr. Cordesman, I will let you start this because this 
was your subtitle. Apparently they are not doing their part 
either, by the way. Thank you.
    Mr. Cordesman. Congressman, in context that referred to 
generic problems in counterinsurgency.
    I think that as Ambassador Neumann mentioned, we, I think, 
are planning on a significant, continued amount of military 
support from Germany and Italy in terms of providing support 
for the training effort. But the fact is that, yes, we should 
have an integrated plan, we should have integrated military 
assistance and aid.
    But that is an area, quite frankly, where to have that, you 
need U.S. leadership, as Ambassador Neumann pointed out. And 
you do have to decide what your strategic objectives are and 
limit them. And at this point, quite frankly, we have had 
allied support in Afghanistan. What we have not had is a great 
deal of leadership in shaping this transition process.
    Mr. Conaway. The gentleman's time has expired.
    I want to thank our witnesses for being here today. Dr. 
Dale and Dr. O'Hanlon and Mr. Cordesman and Ambassador Neumann, 
thank you very much.
    This is a tough subject and it is one that where we can't 
just simply ignore or do away with, or wish it was going to be 
something different, as some have intimated on the panel this 
morning. But it is just tough stuff.
    Lives are at stake. Millions of young ladies or young women 
are in schools, however affected those might or might not be, 
they are at least learning something they wouldn't have learned 
otherwise. And so, this is tough stuff and to take a cavalier 
approach to simply tossing in the towel and leaving I think is 
irresponsible and extreme.
    Thank you very much for your patience this morning and we 
are adjourned.
    [Whereupon, at 11:49 a.m., the committee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                             July 30, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 30, 2014

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
